                     Most Attachments Submitted With
                     Individual Taxpayers’ Tax Returns
                        Are Identified and Processed

                                 September 2004

                       Reference Number: 2004-40-153




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      September 9, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                           Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

      SUBJECT:                        Final Audit Report - Most Attachments Submitted With
                                      Individual Taxpayers’ Tax Returns Are Identified and
                                      Processed (Audit # 200440041)


      This report presents the results of our review of the identification and processing of
      attachments submitted with individual income tax returns. The overall objective was to
      determine whether attachments submitted with individual income tax returns were
      processed. This audit was included in the Treasury Inspector General for Tax
      Administration’s 2004 Annual Audit Plan.
      In summary, the Internal Revenue Service (IRS) appropriately identified and processed
      the majority of attachments taxpayers submitted with their individual income tax returns.
      We judgmentally sampled 4,452 individual income tax returns and determined that all
      attachments with the returns that should have been detached for processing had been
      detached. In addition, we selected a judgmental sample of 350 attachments that had
      been detached from the tax returns and routed for processing and determined that
      305 (87 percent) had been processed.1
      We made no recommendations. IRS management reviewed the report prior to
      issuance. However, since no formal response was required, the IRS has agreed that
      the report will be issued without one.
      Copies of this report are also being sent to the IRS managers who are affected by the
      report finding. Please contact me at (202) 622-6510 if you have questions or Michael R.
      Phillips, Assistant Inspector General for Audit (Wage and Investment Income
      Programs), at (202) 927-0597.



      1
          Detached and routed or took other appropriate action.
                      Most Attachments Submitted With Individual Taxpayers’
                            Tax Returns Are Identified and Processed




                                             Table of Contents


Background ............................................................................................... Page 1
Attachments Submitted With Tax Returns Are Appropriately
Identified and Processed........................................................................... Page 2
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 7
Appendix II – Major Contributors to This Report ....................................... Page 9
Appendix III – Report Distribution List ....................................................... Page 10
             Most Attachments Submitted With Individual Taxpayers’
                   Tax Returns Are Identified and Processed

                              The Internal Revenue Service (IRS) Wage and Investment
Background
                              (W&I) Division processes tax returns filed by individual
                              taxpayers. These are taxpayers filing a U.S. Individual
                              Income Tax Return (Form 1040 series) with no
                              accompanying Schedules C, E, or F; no Employee Business
                              Expenses (Form 2106); and no international activity.1 Most
                              of these taxpayers deal with the IRS only when they file
                              their tax returns; approximately 80 percent receive refunds
                              and are highly compliant.
                              The W&I Division serves approximately 122 million
                              customers. In addition, the Small Business/Self-Employed
                              (SB/SE) Division estimates that another 33 million
                              individuals are self-employed or receive supplemental
                              income they report using Form 1040.
                              Returns filed by individual taxpayers in the W&I and
                              SB/SE Divisions are processed in the IRS campuses.2 The
                              Code & Edit (C&E) function within each campus is
                              responsible for reviewing all documents submitted with the
                              tax returns. C&E function tax examiners review the tax
                              returns to ensure they are correct, complete, valid, and in the
                              correct order for input to IRS computer systems. They also
                              review any attachments to the tax returns to determine if any
                              additional actions are required.
                              For example, taxpayers attach forms and documents with
                              their tax returns including related copies of a Wage and Tax
                              Statement (Form W-2), Application for Additional
                              Extension of Time to File U.S. Individual Income Tax
                              Return (Form 2688), and Social Security Benefit Statement
                              (Form SSA-1099). These documents are necessary to
                              process the tax return and are required to stay with the tax
                              return. However, many documents are related to other
                              aspects of a taxpayer’s account and must be detached and
                              routed to other functions for processing. Examples of these
                              documents would be Offer in Compromise (Form 656), an

                              1
                                Schedule C – Profit or Loss From Business (Sole Proprietorship);
                              Schedule E – Supplemental Income and Loss; Schedule F – Profit or
                              Loss From Farming.
                              2
                                Campuses are the data processing arms of the IRS. The campuses
                              process paper and electronic submissions, correct errors, and forward
                              data to the computing centers for analysis and posting to taxpayer
                              accounts.
                                                                                              Page 1
                  Most Attachments Submitted With Individual Taxpayers’
                        Tax Returns Are Identified and Processed

                                   original or signed photocopy of U.S. Return of Partnership
                                   Income (Form 1065), and Request for Innocent Spouse
                                   Relief (Form 8857).
                                   When tax examiners detach a document from a tax return,
                                   they leave an “action trail” in the margin of the tax return to
                                   indicate what form was detached. They also mark the
                                   detached document indicating the type of tax return from
                                   which it had been detached. These notations can be
                                   expressed as, for example, “DT F2848” or “detached
                                   F2848,” meaning a Power of Attorney and Declaration of
                                   Representative (Form 2848) was detached from the tax
                                   return and forwarded for processing. Similarly, the notation
                                   on the Form 2848 would be “DT 2003 1040,” meaning the
                                   Form 2848 was detached from the Tax Year 2003 individual
                                   income tax return. The separated attachments are then
                                   gathered, sorted by function and/or campus, and forwarded
                                   for additional action and final processing.
                                   In most instances, other functions within the IRS are
                                   responsible for processing the attachments removed from
                                   the tax returns. However, the scope of this audit did not
                                   extend to tracing the attachments to the functions processing
                                   them. This review focused on the C&E function to
                                   determine whether the documents were appropriately
                                   identified and routed for processing.
                                   This review was performed in the W&I Division
                                   Headquarters in Atlanta, Georgia, and in the
                                   Andover, Massachusetts; Atlanta, Georgia; Austin, Texas;
                                   and Kansas City, Missouri, Campuses during the period
                                   October 2003 through April 2004. The audit was conducted
                                   in accordance with Government Auditing Standards.
                                   Detailed information on our audit objective, scope, and
                                   methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   The IRS correctly identified and processed3 305 (87 percent)
Attachments Submitted With
                                   of the 350 attachments reviewed. We could not verify if
Tax Returns Are Appropriately
                                   appropriate action was taken on 33 (9 percent) of the
Identified and Processed
                                   350 attachments because the IRS computer systems do not
                                   capture the information, the submitted document was


                                   3
                                       Detached and routed or took other appropriate action.
                                                                                               Page 2
Most Attachments Submitted With Individual Taxpayers’
      Tax Returns Are Identified and Processed

                 incomplete or incorrect, or the data would not be available
                 on IRS systems until after our audit period. For 12
                 (3 percent) of the 350 attachments, there was no evidence
                 the documents had been processed.
                 Attachments submitted with individual tax returns are
                 being appropriately identified
                 A review of a judgmental sample of 4,452 Form 1040 series
                 tax returns from the 4 campuses showed that all attachments
                 had been identified and those requiring removal were
                 appropriately removed for additional action to be taken. As
                 tax returns are processed through the campuses, controls are
                 in place to ensure all attachments are properly identified
                 and, if required, removed for additional action to be taken.
                 Tax examiners in the C&E function are responsible for
                 examining all attachments to tax returns and determining
                 whether the attachments should remain with the returns or
                 be removed and routed elsewhere for processing. After the
                 tax returns leave the C&E function, they are sent to the
                 Data Conversion function, where the information on the tax
                 returns and associated documents is converted to electronic
                 data for posting to the IRS’ main computer system. Once
                 tax returns have been processed, they are sent to the IRS
                 records storage facility (Files). Returns obtained from the
                 Files function have been through the entire processing
                 stream and have been filed for later retrieval. No
                 attachments that should have been detached were found on
                 any of the tax returns sampled in these functions in the four
                 campuses.
                 IRS employees are taking appropriate action on the
                 majority of tax return attachments reviewed
                 Of the 350 attachments reviewed, the IRS processed or took
                 other appropriate actions on 305 (87 percent) of the
                 attachments taxpayers submitted with their individual
                 income tax returns. The majority of these attachments
                 consisted of:




                                                                        Page 3
Most Attachments Submitted With Individual Taxpayers’
      Tax Returns Are Identified and Processed

                     •   Form 2848.
                     •   Form 2688.
                     •   Application for Automatic Extension of Time to
                         File U.S. Individual Income Tax Return
                         (Form 4868).
                     •   Injured Spouse Claim and Allocation (Form 8379).
                     •   U.S. Individual Income Tax Declaration for an IRS
                         e-file Return (Form 8453) or U.S. Individual
                         Income Tax Declaration for an IRS e-file Online
                         Return (Form 8453-OL).
                     •   Installment Agreement Request (Form 9465).
                     •   Application for IRS Individual Taxpayer
                         Identification Number (Form W-7).
                 In addition, there were taxpayer correspondence and
                 requests for acknowledgement that the IRS received the
                 documents.
                 IRS-wide guidelines provide the functions and campuses
                 instructions on how to process specific forms and
                 attachments submitted with tax returns. C&E function
                 guidelines provide instructions on routing the separated
                 attachments to the appropriate function or campus. C&E
                 function instructions do not require that employees
                 individually control by taxpayer name or Social Security
                 Number (SSN) the attachments removed from tax returns
                 and routed for processing. Although documents sent to
                 other functions within a campus are usually routed
                 individually by attaching an Intra-SC Reject (Form 4227) or
                 Routing Slip (Form 1725), both of which briefly explain
                 why the document is being routed, those routing slips are
                 not controlled.
                 Documents sent to other campuses are typically sent with a
                 Document Transmittal (Form 3210), but only the total
                 number of documents and the type(s) of documents are
                 listed on the transmittal; taxpayers’ names or other
                 identifying information are not included on the Form 3210
                 because the IRS believes it would be too resource intensive.
                 For example, sending 50 Forms 2848 would be indicated by
                 “50 F2848—POA” on the Form 3210.
                                                                       Page 4
Most Attachments Submitted With Individual Taxpayers’
      Tax Returns Are Identified and Processed

                 As stated, identifying taxpayer information is not listed on a
                 transmittal. However, even without this control, 87 percent
                 of the attachments reviewed had been processed or had
                 other appropriate actions taken, showing that IRS
                 employees generally follow routing and processing
                 guidelines.
                 For 33 (9 percent) attachments, we could not determine
                 whether the IRS had taken the appropriate action because
                 IRS computer systems do not capture the information, the
                 submitted document was incomplete or incorrect, or the data
                 would not be available on IRS systems until after our audit
                 period. For example,
                      •   Twenty-two attachments were requests by the
                          taxpayers or the taxpayers’ representatives for an
                          acknowledgement that a tax return or attachment
                          had been received.
                      •   Eleven attachments were not completed correctly by
                          the taxpayers, the SSN was not provided or was
                          incorrect, or the information needed to research the
                          document was not available on IRS systems during
                          the period of this audit.
                 Only 12 (3 percent) of the 350 attachments reviewed
                 showed no evidence of having been processed.4 Of the
                 12 that showed no evidence of having been processed:
                      •   One (8 percent) was a Form W-7. These Forms are
                          processed only by the Philadelphia Campus.
                          Therefore, this attachment would have been shipped
                          to that campus. Shipping adds time to the
                          processing.
                      •   Two (17 percent) documents were correspondence
                          from taxpayers providing additional information
                          necessary for processing the documents properly.
                          These had not been properly identified and coded by
                          the C&E function.




                 4
                  Subsequent to the end of our audit work, the IRS advised us and we
                 confirmed that 6 of the 12 attachments have since been processed.
                                                                               Page 5
Most Attachments Submitted With Individual Taxpayers’
      Tax Returns Are Identified and Processed

                     •   Three (25 percent) documents consisted of
                         Forms 9465 or correspondence requesting an
                         installment agreement.
                     •   Six (50 percent) documents were tax returns that are
                         processed by the SB/SE Division. Therefore, these
                         returns are required to be shipped to the appropriate
                         SB/SE Division campus for processing. Shipping
                         adds time to the processing.
                 Since most of the sampled attachments submitted with
                 individual taxpayers’ tax returns were identified and
                 processed, we are making no recommendations at this time.




                                                                       Page 6
                    Most Attachments Submitted With Individual Taxpayers’
                          Tax Returns Are Identified and Processed

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether attachments submitted with
individual income tax returns were processed. Individual income tax returns include U.S.
Individual Income Tax Return (Form 1040 series) with no international activity and no
accompanying Profit or Loss From Business (Schedule C), Supplemental Income and Loss
(Schedule E), Profit or Loss From Farming (Schedule F), or Employee Business Expenses
(Form 2106). To accomplish our objective, we:

I.      Determined the procedures for processing attachments submitted with individual income
        tax returns.
        A. Obtained and analyzed any relevant Internal Revenue Service (IRS) guidance
           documents.
        B. Interviewed Code and Edit (C&E) function managers in the Submission Processing
           function, Wage and Investment Division, about the procedures for processing
           attachments submitted with individual income tax returns.
        C. Conducted a walk-through of the return processing function (submission processing).
        D. Identified the time standards for processing the attachments sampled.
II.     Determined whether the IRS identified and processed all attachments submitted with
        individual income tax returns.
        A. Selected a judgmental sample of 4,452 Form 1040 returns from the C&E, Data
           Conversion,1 and Files2 functions at 4 campuses:3 Andover, Massachusetts;
           Atlanta, Georgia; Austin, Texas; and Kansas City, Kansas. We selected these
           campuses because we had auditors located in each of these campuses.




1
  The Data Conversion function converts tax return information and other documents to electronic data for input to
the IRS computer system for posting to the IRS’ main computer system.
2
  The IRS records storage facility. Returns in Files have been through the entire processing stream and have been
filed for later retrieval.
3
  Campuses are the data processing arms of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 7
                Most Attachments Submitted With Individual Taxpayers’
                      Tax Returns Are Identified and Processed

          We used the following methodology for selecting the sample of 4,452 Form 1040
          returns. Since we could not determine how many returns might be received with
          attachments (either those remaining with the return or those separated from the
          return), we selected a judgmental sample of Form 1040 tax returns and reviewed
          those returns to identify any attachments submitted with the returns. During the
          survey phase of the audit, we reviewed a cart of returns received and processed by the
          Atlanta C&E function as well as returns in the Files function. We reviewed
          2,300 returns and identified 90 attachments. During the audit phase, we selected
          judgmental samples of 2,152 returns from the Data Conversion and Files functions
          and identified 76 attachments or notations that attachments had been removed. In the
          Data Conversion function at 3 campuses, we reviewed as many returns as possible in
          ½ day or until 50 returns with attachments were identified. In 1 campus, we reviewed
          a total of 50 returns in the Data Conversion function. In the Files function at
          4 campuses, we reviewed as many returns as possible in 1 full day.
       B. Selected a judgmental sample of 184 attachments that the C&E function had
          separated from the returns for processing. Since we could not determine which
          returns would have attachments, for ½ day we copied as many attachments as the
          C&E function had separated from returns during that time period or until at least
          50 attachments were obtained at each of the 4 campuses. The desired number of
          attachments was not obtained from all campuses because one campus did not have
          50 usable separated attachments the day of our visit and some of the attachments
          copied from other campuses did not meet our sample criteria of being listed on the
          C&E Attachment Guide.
       C. Researched the attachments identified with the return or copied from the
          C&E function to determine whether they had been processed.
III.   Discussed any exception cases (and the effect) with IRS management for agreement and
       possible explanation for the oversight.




                                                                                        Page 8
                Most Attachments Submitted With Individual Taxpayers’
                      Tax Returns Are Identified and Processed

                                                                                Appendix II



                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Sharon A. Buford, Senior Auditor
Karen C. Fulte, Senior Auditor
Robert J. Howes, Senior Auditor
Sharla Robinson, Senior Auditor
Grace Terranova, Senior Auditor
Jean Bell, Auditor
Vacenessia Daniels Brown, Auditor




                                                                                         Page 9
               Most Attachments Submitted With Individual Taxpayers’
                     Tax Returns Are Identified and Processed

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Resources Management, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
    Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 10
